I, am employed in the County of Contra Costa, State of California. I am over the age of 18

1
2

years and not a party to the within action. My business address is 1550 Parkside Drive, Suite 300,

3

Walnut Creek, California 94596.

4

On the date entered below, I certify the service of the following:

5



6
7
8
9
10

DEFENDANTS AND APPELLEES CHICAGO TITLE COMPANY AND
JEANIE O’CONNOR’S WAIVER

on the following individuals and parties in said action by placing a true copy thereof as
indicated below, addressed as follows:
Wylmina Hettinga
1587 17th Street
Los Osos, CA 93402

Plaintiff in Pro Per

Bradley A. Bening, Esq.
Bruce D. MacLeod, Esq.
Willoughby, Stuart, Bening and Cook
50 W. San Fernando Street, Suite 400
San Jose, CA 95113

Attorney for Defendants
Travis I. Krepelka
Walter P. Hammon

Joan I. Oppenheimer, Esq.
P.O. Box 502
Washington, DC 20044
Email: joan.i.oppenheimer@usdoj.gov
appellate.taxcivil@usdoj.gov
Pamela Kennedy
6214 Civic Terrace Avenue, Apt. B
Newark, CA 94560

Attorney for Apelles’s Shashank Paliwai &
USA

11
12
13
14
15
16
17
18
19
20
21
22

Timothy P. Loumena
6276 El Paseo Dr.
San Jose, CA 95120

Scott Raley
5330 Camden Avenue
San Jose, CA 95124

23
24

(√)

(BY ELECTRONIC SERVICE)
Pursuant to TRUE FILING System, registration as
TRUE FILING user constitutes consent to electronic service through the Court’s
transmission facilities. The Court’s TRUE FILING system sends an email notification of the
filing to the parties and counsel of record listed who registered with the Court’s TRUE
FILING system.

(√)

(BY MAIL) I caused such envelope(s) with postage thereon fully prepaid to be placed for
collection and mailing at my place of business. Following ordinary business practices, said
2.

25
26
27
28

CERTIFICATE OF SERVICE

1
2
3

correspondence will be deposited with the United States Postal Service at Walnut Creek,
California, on the referenced date in the ordinary course of business. There is delivery
service by United States mail at the place so addressed in the City of Walnut Creek, County
of Contra Costa, State of California.

4

I declare under penalty of perjury under the laws of the State of California that the foregoing
is true and correct.

5

DATED: July 22, 2021
/s/ Stacey Ruiz
Stacey Ruiz

6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
3.
CERTIFICATE OF SERVICE

